                           STATE OF MICHIGAN

                EVALUATION OF GRANT OBLIGATIONS
                       AND EXPENDITURES

               WORKFORCE INVESTMENT ACT GRANTS
                AND JOB TRAINING PARTNERSHIP ACT
                        TRANSITION FUNDS


               INDEPENDENT ACCOUNTANT’S REPORT
              ON APPLYING AGREED-UPON PROCEDURES

                 JULY 1, 2000 THROUGH MARCH 31, 2002




This agreed-upon procedures report was prepared by Harper, Rains, Stokes and Knight, P.A.,
under contract to the U.S. Department of Labor, Office of the Inspector General, and by
acceptance it becomes a report of the Office of Inspector General.


                                    ______________________________
                                    Assistant Inspector General For Audit
                                    U.S. Department Of Labor




                                               Report No: 04-03-007-03-390
                                               Date Issued: March 28, 2003

                 HARPER, RAINS, STOKES, & KNIGHT, P.A.
                                                TABLE OF CONTENTS


Acronyms .......................................................................................................................................iii

Independent Accountant’s Report on Applying Agreed-Upon Procedures .................................... 1

Summary of Results ........................................................................................................................ 2

Background, Scope and Methodology ........................................................................................... 3

           Background ......................................................................................................................... 3
           Scope and Methodology...................................................................................................... 4

Procedures and Findings ................................................................................................................. 5

Exhibit I – Sample Financial Status Report

Exhibit II – The State of Michigan’s Response




                                                                  ii
                       ACRONYMS

AY     Allocation Year

CFR    Code of Federal Regulations

DOL    U.S. Department of Labor

ETA    Employment and Training Administration

FIFO   First In, First Out

FSR    Financial Status Report

FY     Fiscal Year

JTPA   Job Training Partnership Act

MDCD   Michigan Department of Career Development

MWA    Michigan Workforce Development Agency (MWA)

OIG    Office of the Inspector General

PY     Program Year

QER    WIA Quarterly Expenditure Report

WIA    Workforce Investment Act




                             iii
                                SUMMARY OF RESULTS


We summarized the WIA funds obligated and expended by the State of Michigan as of
December 31, 2001. We determined that obligation information reported on Financial
Status Reports (FSRs) included actual obligations for statewide activities. However,
obligations reported for Local Board activities represented amounts passed through to
Local Boards, not just amounts that Local Boards had actually obligated.

We found that accounting records supported amounts reported as obligations and
expenditures on FSRs. Procedures were established for recording transactions on the
accrual basis of accounting in accordance with Federal regulations. Obligations and
expenditures reported to the State were substantiated by monthly reports submitted by
Local Boards.

As of December 31, 2001, Michigan had expended $107 million, or 65 percent of the
$164.5 million awarded, leaving $57.5 million or 35 percent unexpended. At this rate of
spending, it would take almost 10 months to spend the remaining funds, during which
time the State would receive additional WIA allocations.

The State and Local Boards charged expenditures to WIA grants on a First-In-First-Out
basis, rather than matching Program Year (PY) expenditures with the grant applicable to
the period in which expenditures accrued. As a result, actual cost of program operations
for a particular PY cannot be determined.

State of Michigan’s Response

The Michigan Department of Career Development provided a written response to our
draft report, which is included in its entirety at Exhibit II. In general, the State agreed
with the information presented in the report, but provided additional comments.
Michigan stated that charging expenditures to WIA grants on a FIFO basis is an
acceptable practice under 20 CFR Part 667.107 (a).

Our procedures were not intended to determine Michigan’s compliance with program
requirements. However, by using the FIFO basis, Michigan does charge current
expenditures to prior period funds until exhausted.




                                               2
                  BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA, enacted in 1998, was designed to reform prior Federal job training programs and
create a new comprehensive workforce investment system. The new system intends to
provide customer-focused services, assist Americans in accessing the tools needed to
manage their careers through information and services, and assist U.S. companies in
finding skilled workers. The WIA superseded the JTPA and amended the Wagner-Peyser
Act.
Initial grants for the WIA program were awarded by DOL, ETA, beginning in PY 2000.
However, unexpended funds from the PY 1998 and PY 1999 JTPA programs were
authorized for transition into the WIA program. Generally, the states are required to pass
through approximately 85 percent of the awards received from DOL to Local Boards
(subrecipients). In Michigan, Local Boards are known as Michigan Workforce
Development Agencies (MWAs).
States have the original program year plus two additional program years to spend the
grant funds. However, funds allocated by a State to a Local Board for any program year
are available for expenditure only during that program year and the succeeding program
year. Funds that are not expended by a Local Board in this two-year period must be
returned to the State.
States are required to report WIA activities on quarterly Financial Status Reports (FSRs).
Accrued expenditures and obligations are key items reported on the FSRs. Accrued
expenditures are reported when a valid liability has been created through delivery of
goods or services, regardless of when cash payment is made. For example, salaries
earned by employees, but not yet paid, should be recorded as accrued expenditures.
Obligations are reported when certain events occur which will require payment by the
States or Local Boards in the same or a future period. Obligations are defined in the WIA
regulation as follows:
       . . .the amounts of orders placed, contracts and subgrants awarded,
       goods and services received, and similar transactions during a funding
       period that will require payment by the recipient or subrecipient during
       the same or a future period [20 CFR 660.300] (emphasis added).
However, according to ETA, Office of Grants and Contract Management, States have
been verbally instructed to report obligations for Statewide Activities and Rapid
Response only for those amounts of funding for which a legal liability exists at the State
level. Likewise, the State has been instructed to report obligations for Local Board
activities (Local Administration, Youth, Adult, and Dislocated Workers) only for those
amounts of funding for which a legal obligation exists at the Local Board level. ETA had
not clearly specified whether Local Boards’ obligations or States’ pass-through awards
should be included on FSRs.



                                            3
Scope and Methodology

Our agreed-upon procedures include WIA funds awarded to Michigan for PY 2000,
Fiscal Year (FY) 2001, PY 2001 and FY 2002, as well as PY 1998 and PY 1999 JTPA
funds transitioned into the WIA program. Procedures were applied to grant activities
reported by the State and three MWAs (Capital Area Michigan Works, City of Detroit
Michigan Works and Career Alliance Michigan Works) from July 1, 2000 through
December 31, 2001. For procedure number 7, we obtained information subsequently
reported by the State and MWAs for the March 31, 2002 reporting period.

In general, our procedures were designed to summarize Michigan’s WIA financial
activity (obligations and expenditures) through December 31, 2001, to determine if the
amounts reported to ETA agreed with supporting accounting records, and to measure the
extent to which the State and MWAs have obligated and expended WIA funds.




                                          4
                         PROCEDURES AND FINDINGS


1.   Interview the appropriate MDCD personnel regarding how information is
     accumulated from the MWAs and about the preparation of the FSRs. Using
     this information, verify exactly what obligations were reported on the
     December 31, 2001 WIA Quarterly Financial Status Reports. Determine if
     the amounts passed through to the MWAs are reported as obligations on the
     FSRs. Based on the information obtained, determine if the MDCD is
     reporting obligations as described at 20 CFR 660.300 to include subgrants
     awarded to subrecipients.

     As of December 31, 2001, amounts reported as “obligations” on FSRs for the
     Adult, Youth and Dislocated Worker programs as well as Local administrative
     expenses were funds that MDCD had allocated to the MWAs, not legal
     obligations for WIA services. However, for Statewide Activities and Rapid
     Response, the amounts reported as “obligations” were legal obligations to service
     providers.

     MWAs report to the State using Quarterly Expenditure Reports (QERs) that are
     comparable to FSRs used by MDCD to report obligations to DOL. QERs are
     submitted to the State by the 20th day following the end of each calendar quarter.

     According to MDCD, funds passed through to Local Boards are considered to be
     “obligated” at the time the funds are allocated to the Local Boards. Reporting of
     funds passed to Local Boards as “obligated” does not take into account whether
     legal obligations exist.

     Our review of MDCD’s support for their FSRs confirmed that obligations
     reported on the FSRs represented amounts awarded as subgrants to subrecipients.

     ETA had not clearly specified whether Local Board obligations or the State’s
     pass-through awards should be included on these reports.


2.   Determine how MDCD tracks the various funding periods for both MDCD
     and MWA activities, and if data is accounted for in a manner that will allow
     expenditures to be matched against the appropriate obligation

     Based on discussions with representatives of MDCD as well as examination of
     financial records at MDCD and MWAs, we determined that MDCD does not
     match expenditures with the appropriate fiscal period’s funding. Rather, current
     expenditures are charged against the earliest available funding.




                                          5
     Expenditure information reported to MDCD by MWAs was identified by funding
     period; however, reported expenditures were charged to the earliest year that
     funding remained available, rather than the year in which expenditures accrued.
     As a result, a program’s cost could not be matched with the period for which it
     was funded.


3.   Determine if the expenditure information (Outlays on the December 31, 2001
     FSRs) was reported on the accrual basis of accounting as required at 29 CFR
     97 and the WIA reporting instructions at 20 CFR 667.300 (c) (3).

     As discussed in greater detail at item 8 of this report, QERS contain, among other
     things, the amounts of accrued expenditures incurred to date by MWAs. These
     amounts then roll up into the Federal FSR as “Outlays”.

     We reviewed reporting instructions provided by MDCD to MWAs and
     determined that amounts identified as “accrued expenditures” should include
     expenditures that have been incurred but for which payment has not been made by
     MWAs. This manner of reporting is consistent with the accrual basis of
     accounting required by 29 CFR 97 and instructions at 20 CFR 667.300.

     We made specific inquiries of Local Board representatives regarding the inclusion
     of accruals in the amounts reported as expenditures to the State. Representatives
     of the Local Boards stated that amounts reported as expenditures were, in fact,
     inclusive of accruals as instructions required.


4.   Determine what information is required to be reported by MWAs to MDCD,
     including the content, format, frequency and any written instructions issued
     by MDCD. Obtain copies of reports submitted by MWAs and copies of
     written instructions.

     Our review of MDCD’s Fiscal Reporting Instruction guidelines, discussions with
     representatives of MDCD, and a review of QERs for the quarter ending December
     31, 2001, revealed that MWAs are required to report total Federal funds available,
     accrued expenditures, unobligated balances, and where applicable, program
     income.


5.   Obtain or prepare from documents supporting FSRs, a summary of QERs
     from the MWAs, and analyze this information to select MWAs to visit.

     We obtained MDCD’s “Composite Accrued Expenditures Reports” that
     summarized obligation and expenditure information for MWAs. Utilizing this
     report, we made a judgmental selection of three MWA offices in which to conduct




                                          6
     fieldwork. MWAs selected for site visits were Capital Area MWA, City of
     Detroit MWA and Career Alliance MWA.


6.   Compare the information compiled at ETA to the reports prepared by
     MDCD and explain any differences determined.

     We compared FSRs reported to DOL by MDCD to corresponding data we
     compiled at ETA. Information on the FSRs agreed to information compiled at
     ETA. Key elements of FSR data were extracted from the reports, including Total
     Federal Funds Authorized, Obligations, Outlays (accrued expenditures), and
     Unobligated Balance of Federal Funds for each PY and FY. The extracted data
     was used to perform analytical procedures described at item 7 of this report.




                                        7
7.   Perform an analytical review of the information obtained to develop trend
     information and investigate any unusual relationships noted.

     Total Federal Funds Authorized

     The table below shows total WIA funds awarded by DOL to MDCD since
     inception of the WIA program:


      Funding  Beginning of           Expiration of  Total WIA Funds
      Period  Spending Period        Spending Period     Awarded
      PY 1998 JTPA transition         June 30, 2001  $     113,821

      PY 1999     JTPA transition      June 30, 2002     $ 10,511,243

      PY 2000       July 1, 2000       June 30, 2003     $ 43,150,489

      FY 2001     October 1, 2000      June 30, 2003     $ 35,227,909

      PY 2001       July 1, 2001       June 30, 2004     $ 43,236,903

      FY 2002     October 1, 2001      June 30, 2004     $ 33,020,700

      Less:           Rescission of PY 2001 funds        ($    773,029)

                             Total Awards                $ 164,488,036


     WIA funds are awarded on a PY basis from July 1 to June 30, except for Youth
     grants that are available in the April preceding the start of the PY. However, a
     portion of PY 2000 and 2001 funding, denoted as “FY” above, was not available
     until October 1 of each respective PY.




                                         8
7. (Continued)

      WIA Funds Obligated

      Data presented below reflects total WIA funds reported to ETA as obligated by
      MDCD as of December 31, 2001.


                 Funding                 Total Funds         Total WIA         Amount           Percent of
                  Period                   Awarded             Funds         Unobligated         Funding
                                         (in millions)       Obligated       (in millions)     Unobligated
                                                            (in millions)
       PY 1998                              $ 0.1              $ 0.1             $   0.0             0.0%

       PY 1999                              $ 10.5            $    10.5          $   0.0             0.0%

       PY 2000                              $ 43.2            $    43.2          $   0.0             0.0%

       FY 2001                              $ 35.2            $ 34.6             $ 0.6               1.7%

       PY 2001                              $ 43.2            $    43.0          $   0.2             0.5%

       FY 2002                              $ 33.0            $ 28.3             $ 4.7               14.2%

       Less: PY 2001 Rescission            ($ 0.8)                N/A           ($ 0.8)              N/A

       Total                               $ 164.5           $    159.8          $   4.7             2.9%


      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by MDCD and summarized. Additionally, a portion of PY 2001 funding was rescinded
      as noted above. In some instances, the individual amounts in the above columns do not sum to
      the amount presented as “Total” due to rounding differences.



      Of the total $164.5 million of funding available, $4.7 million (2.9 percent)
      remained unobligated as of December 31, 2001. However, as discussed at item 1
      of this report, in addition to obligations made at the State level, Michigan reports
      funds to be “obligated” upon their allocation of the funds to the MWAs, even
      though the MWAs have not legally obligated the funds.




                                               9
        7. (Continued)
        WIA Funds Obligated - Continued


        DOL-OIG requested that we determined “actual obligations” for only those
        amounts for which a legal liability existed as of March 31, 2002.

        In order to arrive at the amount of actual obligations for which a legal liability
        existed at March 31, 2002, we subtracted the amounts reported to MDCD as
        “unobligated” from total allocations made to each MWA. We combined actual
        obligations for MWAs, with obligations for State-level Activities to dervive total
        actual obligations for Michigan.


                                                       Total WIA
                                 Total Funds             Funds            Amount            Percent of
         Funding                   Awarded             Obligated        Unobligated          Funding
          Period                 (in millions)        (in millions)     (in millions)      Unobligated
         PY 1998                     $ 0.1               $ 0.1             $ 0.0              0.0%

         PY 1999                     $ 10.5             $    10.5           $   0.0            0.0%
         PY 2000                     $ 43.2             $    43.2           $   0.0            0.0%

         FY 2001                     $ 35.2             $ 35.0              $ 0.2              0.6%

         PY 2001                     $ 43.2             $    43.2           $   0.0            0.0%
         FY 2002                     $ 33.0             $ 29.5              $ 3.5             10.6%

Less: PY 2001 Rescission            ($ 0.8)                 N/A            ($ 0.8)              N/A

Total                               $ 164.5            $    161.5           $   2.9            1.8%

        Note: Information in the above table regarding actual obligations was obtained from MDCD and
        summarized. Additionally, a portion of PY 2001 funding was rescinded as noted above. In some
        instances, individual amounts in the above columns do not sum to the amount presented as
        “Total” due to rounding differences.


        Our analysis of the additional information provided by Michigan shows that, of
        the total $164.5 million of funding available, $161.5 million (98.2 percent) was
        actually obligated. Only $2.9 million (1.8 percent) remained unobligated as of
        March 31, 2002. This was $1.7 million more than obligations reported at
        December 31, 2001.




                                                 10
7. (Continued)

Total Federal Expenditures

The following summary reflects total WIA expenditures reported by MDCD
through December 31, 2001. These amounts are recorded in DOL’s general
ledger.


       Funding Period             Total Funds             Total            Amount           Percent of
                                    Awarded          Expenditures        Unexpended          Funding
                                  (in millions)      ( in millions)      (in millions)     Unexpended
 PY 1998                             $ 0.1               $ 0.1              $ 0.0             0.0 %

 PY 1999                              $ 10.5             $ 10.4             $ 0.1              1.0 %

 PY 2000                              $ 43.2             $ 41.0             $ 2.1              4.9 %

 FY 2001                              $ 35.2             $ 31.9             $ 3.3              9.4 %

 PY 2001                              $ 43.2             $ 22.9             $ 20.4             47.2 %

 FY 2002                              $ 33.0             $ 0.7              $ 32.3             97.9 %

 Less: PY 2001 Rescission            ($ 0.8)               N/A              ($ 0.8)             N/A

 Total                               $ 164.5             $ 107.0             $ 57.5            34.9 %


Note: Information in the above table was obtained from quarterly Financial Status Reports
prepared by MDCD and summarized. Additionally, a portion of PY 2001 funding was rescinded
as noted above. In some instances, individual amounts in the above columns do not sum to the
amount presented as “Total” due to rounding differences.




Of the $164.5 million awarded, the MDCD had spent $107 million (65.1 percent),
leaving $57.5 million (34.9 percent) unspent as of December 31, 2001. At this
rate of spending, it would take almost 10 months to spend the remaining funds,
during which time the State would receive additional WIA allocations.




                                         11
7.   (Continued)

     Expenditure Analysis by Funding Stream

     The following provides a summary of unspent funding by program component:


                                          Amount            Amount            Percent of
                                          Awarded         Unexpended           Funding
         Program Component              (in millions)     (in millions)      Unexpended

      MWA Activities:
      Adults                              $     45.8         $ 14.6             31.9 %
      Dislocated Worker                   $     34.8         $ 12.5             35.9 %
      Local Admin                         $     14.4         $  5.3             36.8 %
      Youth                               $     49.2         $ 16.8             34.1 %
      Total MWA
       Activities                         $   144.2          $   49.2           34.1 %

      State Activities:
      State-wide Activities               $    19.2          $    8.2           42.7 %
      State-wide Rapid Response           $     1.8          $    0.8           44.4 %
      Total State Activities              $    21.0          $    9.0           42.9 %

      Less: PY 2001 Rescission             ($ 0.8)           ($ 0.8)              N/A

      Total Funding                       $ 164.5            $   57.5            34.9%


     Note: Information in the above table was obtained from quarterly Financial Status Reports
     prepared by MDCD and summarized. Additionally, a portion of PY 2001 funding was rescinded
     as noted above. In some instances individual amounts in the above columns do not sum to the
     amount presented as “Total” due to rounding differences.



     Cost data submitted by MDCD through December 31, 2001, indicates that a
     significant amount of WIA funds at both the State and MWA levels were not
     spent as of that date (42.9 percent and 34.1 percent, respectively).




                                              12
8. Interview appropriate MWA personnel regarding how information is
   accumulated and about preparation of MWA reports to MDCD. Inquire as
   to the source of obligation, cost and/or payment information reported to
   MDCD by MWA, and determine if information reported agrees with
   corresponding source accounting records.

   Expenditure and funding availability is reported by MWAs to MDCD using
   QERs. While obligations were not reported by MWAs, unobligated balances
   were reported. Therefore, obligated balances could be derived.

   Separate QERs were not prepared for each PY and FY. PY and FY funding is
   combined at the State level before allocation to the MWAs as Program Year
   funds. However, MDCD charged expenditures reported by MWAs to PY and FY
   funded periods on a FIFO basis.

   We reviewed source accounting records at the three MWAs we visited in order to
   determine if they supported the information reported to MDCD. MWAs provided
   us with documentation in the form of reports and schedules that supported
   amounts reported as expenditures and unobligated funds.


9. Determine how MWAs tracks various funding periods and if data is reported
   and accounted for in a manner which will allow expenditures to be matched
   against the appropriate obligation or subcontract agreement.

   The MWAs employ FIFO methodology in associating period expenditures with
   funding sources. This methodology does not allow for the matching of a
   particular period’s expenditures with the funding allotted to that period. As such,
   expenditures reported by MWAs were not matched with appropriate funding.
   Rather, expenditures were charged against prior period funds until those funds
   had been exhausted, and then charged to a subsequent period’s funding.

   For example, any amount of PY 2000 funding that remained after PY 2000 had
   lapsed would be used to satisfy a subsequent period’s expenditures until all of PY
   2000 funding was exhausted. PY 2001 funding would subsequently be used to
   satisfy expenditures. Charging current period expenditures to prior period
   funding dissociates the funding allotted to a specific period from the cost of that
   period.




                                       13
10. Determine how the MWA defines an obligation and the point at which funds
    are considered to be obligated. Determine if the MWA definition includes
    only anticipated expenditures to meet bona fide needs of the funding
    program year and for which a legal liability exists.

   At the three Local Boards visited, representatives indicated that the “obligation”
   of funds coincides with the decision to contract for services under WIA.
   Obligations are recorded in anticipation of making payments to contractors for
   bona fide needs of the WIA program. The signing of a contract between the
   Local Board and a contractor, results in a legal liability.

   The Local Boards’ definition includes only anticipated expenditures to meet bona
   fide needs for which a legal liability exists. However, as mentioned at item
   number 9 of this report, there is no matching of the funding year and year in
   which expenditures accrue due to the State’s and Local Boards’ use of FIFO
   methodology.




                                        14
                                                                       EXHIBIT I

                  SAMPLE FINANCIAL STATUS REPORT




Following this title page is a sample WIA financial status report used to report
program activities to DOL.




                                     15
16
                                                                           EXHIBIT II


                         THE COMPLETE TEXT OF
                    MICHIGAN’S RESPONSE TO THE DRAFT
                     AGREED-UPON PROCEURES REPORT




Following this title page is the complete text of Michigan’s response to our agreed-upon
procedures report, issued to them on March 5, 2003.




                                          17
18
19
20
21
22
